HHS/OIG - Audit,"Audit of Yale University's Adult General Clinical Research Center for Grant Year 1999,"(A-01-01-01501)
Department of Health and Human Services
"Audit of Yale University's Adult General Clinical Research Center for Grant Year 1999," (A-01-01-01501)
December 6, 2001
Complete
Text of Report is available in PDF format (781 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine whether the Yale University Adult GCRC had adequate internal controls to ensure
the GCRC was utilized in accordance with NIH guidelines and the activity was accurately reported.  During grant year
1999, the GCRC did not have a sufficient level of research utilization and credit days to justify being funded as a discrete
unit.  In this respect, the discrete GCRC was utilized only 60% for research.  Therefore, the GCRC was not operated
in the most cost effective manner.  The NIH advised us that the Yale GCRC would have been funded $444,615 less in
FY 1999 if it were funded on the per diem basis.  Without increased research utilization, we question the continued
use of the discrete funding methodology.  For example, in FY 2002 the per diem methodology results in approximately
$600,000 less costs than the discrete methodology.   We recommend that the Yale University:  1) Ensure its
applications for GCRC funding contain reasonable and accurate estimates of GCRC research activity as well as potential
non-research activity; and 2) Annually conduct an analysis to determine the most appropriate means of funding the GCRC
and working with the NIH to determine the most efficient and effective means for funding the GCRC.